         Office of Inspector General
         Audit Report




EPA Grants Awarded to the
Rosebud Sioux Tribe
Report No. 1000370-2002-1-00096   March 19, 2002
Inspector General Resource Center
  Conducting the Audit:           Central Audit and Evaluation Resource Center
                                  Denver, Colorado Office


EPA Region Covered:                          Region 8


Program Offices Involved:                    Tribal Assistance Program
                                             Grants, Audits, and Procurement Program


Audit Conducted by:                          Larry Dare
                                             Chris Dunlap
                                             Thomas Herrod




Cover:   The illustration is part of an EPA poster that depicts Tribes’ sovereign right to protect the
         water, land, and air. The cover illustration represents air.
               UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                OFFICE OF INSPECTOR GENERAL
                       CENTRAL AUDIT AND EVALUATION RESOURCE CENTER          BRANCH OFFICES:
                                    901 NORTH 5TH STREET         1445 Ross Avenue, Suite 1200
                                 KANSAS CITY, KANSAS 66101           Dallas, Texas 75202-2733
                                         913-551-7878                            214-665-6621
                                       FAX: 913-551-7837                  FAX: 214-665-6589

                                           April 11, 2002                       999 18th Street Suite 300
                                                                            Denver, Colorado 80202-2405
                                                                                           303-312-6872
                                                                                     FAX: 303-312-6063

MEMORANDUM

SUBJECT:      EPA Grants Awarded to the Rosebud Sioux Tribe
              Report No. 1000370-2002-1-00096

FROM:         Jeff Hart
              Branch Manager
              Denver Office

TO:           Jack McGraw
              Acting Regional Administrator
              Region 8

       Attached is our report, EPA Grants Awarded to the Rosebud Sioux Tribe. This report includes
our independent assessment of four Rosebud Sioux environmental grants and Rosebud Sioux's general
management of its environmental program.

ACTION REQUIRED

        In accordance with EPA Order 2750, you, as the action official, are required to provide our
office with a proposed draft management decision specifying the Agency's position on our
recommendation on costs questioned and other recommendations in this report. The draft management
decision is due within 120 calendar days of the date of this transmittal memorandum.

        Our report includes an assessment of your draft report comments. We also included your
written comments as Appendix I.

        If you have any questions, please call me at (303) 312-6169 or Larry Dare at (303) 312-6969.
Please refer to report number 1000370-2002-1-00096 on any related correspondence.


Attachment
(this page intentionally left blank)
                                              Table of Contents

Independent Auditor’s Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Audit Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

          Objective        .............................................................. 2

          Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

          Findings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

          Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

          Agency Comments and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


Exhibits

          A: Summary of Balance Due EPA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

          B: Summary of Audit Results for Water Grant I008541970 . . . . . . . . . . . . . . . . . . . . . . . . 8

          C: Summary of Audit Results for General Assistance Program
                Grant NI998457010 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

          D: Summary of Audit Results for Pesticides Grant E00827198 . . . . . . . . . . . . . . . . . . . . . 12

          E: Summary of Audit Results for Pesticides Grant E00827199 . . . . . . . . . . . . . . . . . . . . . . 14


Appendices

           I: Region 8 Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

          II: Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19




                                                                                                Report No. 1000370-2002-1-00096
(this page intentionally left blank)




                                       Report No. 1000370-2002-1-00096
                                                                               EPA Grants Awarded to
                                                                              the Rosebud Sioux Tribe



                            Independent Auditor’s Report

We have examined the costs claimed on the final Financial Status Report (Form 269A) and Request for
Advance or Reimbursement (Form 270) for each of the grants listed in the Scope and Methodology
section submitted by the Rosebud Sioux Tribe, Rosebud, South Dakota (grantee). The preparation and
certification of the claims are the responsibility of the grantee. Our responsibility was to express an
opinion on the claims.

We conducted our examination in accordance with Government Auditing Standards, issued by the
Comptroller General of the United States. Those standards require that we plan and perform the audit
to obtain reasonable assurance about whether the claims submitted by the grantee are free of material
misstatement and are eligible under the grant agreements. An audit includes examining, on a test basis,
evidence supporting the amounts and disclosures in the final claims. An audit also includes assessing
the accounting principles used and significant estimates made by management in preparing the claims.
We believe that our audit provides a reasonable basis for our opinion.

As discussed in Exhibits A through E, the grantee received reimbursement for costs not adequately
supported in the accounting records, ineligible under Environmental Protection Agency (EPA)
regulations and grant requirements, or unreasonable. In most instances, the grantee inadequately
supported costs because it did not properly document payroll.

In our opinion, because of the effects of the matters discussed in the preceding paragraph, the claimed
costs referred to above and presented in Exhibits A through E do not present fairly costs claimed
according to the law, regulations, grant requirements, and other applicable Federal guidance.




                                             Jeff Hart
                                             Branch Manager
                                             Denver Office
                                             Central Audit and Evaluation Resource Center
                                             Office of Inspector General

                                             Fieldwork End: March 5, 2002




                                                   1                 Report No. 1000370-2002-1-00096
                                                                             EPA Grants Awarded to
                                                                            the Rosebud Sioux Tribe



                                        Audit Results

In response to a December 7, 1999 allegation letter, we reviewed: (1) the legality of EPA Region 8's
Tribal Assistance Program grants, (2) the Tribal Assistance Program’s internal management, and
(3) grantee management of environmental programs and expenditure of grant funds. We reported on
the first two issues in our September 29, 2000 report, Increased Focus on Grant Management and
Internal Relationships Would Improve Region 8's Tribal Assistance Program. To address the third
issue, we conducted financial audits of four grantees. We judgmentally selected the four grantees
based on their significant involvement with EPA programs, past performance, and the fact that each
had several recently closed grants for which we expected to find complete financial records. This
report provides our findings at one of those grantees – the Rosebud Sioux Tribe, Rosebud, South
Dakota.


Objective
Our overall objective was to determine whether the grantee effectively managed its environmental
grants. To accomplish this objective, we asked the following question: Were costs claimed for grants
eligible, reasonable, and supported, and were the costs in compliance with grant terms and conditions
as well as applicable Federal statutes and regulations? We did not determine whether the grantee
accomplished all the objectives of the grants.


Scope and Methodology
EPA paid the grantee $452,175 under the following assistance agreements:

                                                        Financial Status
             Program                 Grant No.         Report Form 269A          Amount

Water Section 106                  I008541970         February 6, 2001           $175,746

General Assistance Program         NI998457010        August 17, 2000             199,429

Pesticides                         E00827198          November 30, 1998            38,500

Pesticides                         E00827199          December 16, 1999            38,500

                                                      Total                      $452,175


We selected these four grants to obtain a cross-section of the grantee’s environmental program
and because the grantee had received final payment from EPA for each grant. Grant I008541970
involved water quality projects from April 1997 through March 2000. Grant NI998457010
involved activities from August 1996 through March 2000 for increasing tribal capacity and


                                                  2                 Report No. 1000370-2002-1-00096
                                                                                             EPA Grants Awarded to
                                                                                            the Rosebud Sioux Tribe

management capabilities. Grants E00827198 and E00827199 were for developing and enhancing
comprehensive toxic substance enforcement programs during fiscal years 1998 and 1999,
respectively. EPA was responsible for 100 percent of eligible costs associated with the
NI998457010 grant and 95 percent of eligible costs for the other three grants. For those three
grants, the grantee funded the remaining five percent. The cost for the four projects totaled
$468,287, which included EPA payments of $452,175.

For each grant, the grantee certified on Standard Form 270, Request for Advance or
Reimbursement, that the costs complied with grant terms. Subsequently, the grantee certified on
Standard Form 269A, Financial Status Report, that all outlays and unliquidated obligations were
for the purposes set forth in the grant documents.

We visited the Rosebud Sioux Reservation during the week of April 30, 2001. We reviewed the
four grants, detailed expense ledgers, and accompanying receipts and other supporting
documentation.


Findings
We Questioned 86 Percent of Costs Claimed

We questioned 86 percent, or $401,527, of all costs claimed under the four grants we audited.
EPA’s share of questioned costs is $387,621. The questioned costs primarily consist of
unsupported payroll costs (salaries and fringe benefits) and related indirect costs. Specifically:

•      We questioned $320,185 in payroll costs1 because the grantee’s documentation of payroll
       disbursements did not meet Office of Management and Budget Circular A-87 requirements.

•      Because the grantee used payroll costs as the basis for indirect costs and, as noted, the method
       of charging salaries did not meet Office of Management and Budget requirements, we
       questioned $64,603 in indirect costs2.

•      The remaining questioned costs of $16,739 involved travel, vehicle expense, supplies,
       equipment, contracts, utilities, and match.




            1
              The $320,185 in questioned payroll costs represents the sum of all four grants’ payroll costs: $112,909
    from the Water Grant (Exhibit B); $146,436 from the General Assistance Program Grant (Exhibit C); $29,312
    from the 1998 Pesticides Grant (Exhibit D); and $31,528 from the 1999 Pesticides Grant (Exhibit E).
            2
              The $64,603 in questioned indirect costs represents the sum of all four grants’ indirect costs: $22,774
    from the Water Grant (Exhibit B); $29,539 from the General Assistance Program Grant (Exhibit C); $5,921 from
    the 1998 Pesticides Grant (Exhibit D); and $6,369 from the 1999 Pesticides Grant (Exhibit E).

                                                              3                   Report No. 1000370-2002-1-00096
                                                                                EPA Grants Awarded to
                                                                               the Rosebud Sioux Tribe

Exhibit A shows overall costs claimed and questioned while Exhibits B through E provide detailed
summaries for each of the four grants.

Internal Controls Did Not Support Good Grant Management

The General Accounting Office’s November 1999 Standards for Internal Control in the Federal
Government (Standards) establish standards that should be part of any organization’s management.
According to the Standards, sufficient internal control helps provide reasonable assurance that an
organization’s operations are effective and efficient, financial reporting is reliable, and applicable
laws and regulations are followed. A strong internal control structure includes five components:
(1) control environment, (2) risk assessment, (3) control activities, (4) information and
communications, and (5) monitoring.

Even though our audit did not include a comprehensive review of the grantee's internal controls for
managing its Federal grants, we observed two material weaknesses during our audit that raised
serious concerns about the ability of the Rosebud Sioux Tribe to adequately manage environmental
grants. Tribal leadership, management, and staff did not emphasize the importance of good
internal controls and did not adequately communicate program or financial information.

       Control Environment: Rosebud Sioux Tribe’s leadership did not emphasize and, as a
       result, management and staff did not establish a positive control environment, the
       foundation for all other internal control standards. The Standards state that a positive
       control environment includes competent staff with high integrity and ethical values, strong
       management oversight of staff, clearly defined staff authority and responsibility, and strong
       human capital policies and practices. Management provided neither the discipline and
       structure nor the climate to positively influence the quality of internal controls. For
       example, management did not require staff to charge time to individual projects, nor did
       management ensure environmental staff complied with grant provisions. In addition,
       management did not establish an effective organizational structure and management did not
       implement effective oversight practices.

       Information and Communications: Rosebud Sioux Tribe management did not
       adequately communicate program or financial information with either EPA or Tribal
       management. The Standards require pertinent information to be, “ identified, captured, and
       distributed to the right people in sufficient detail and at the appropriate time to enable them
       to carry out their duties and responsibilities efficiently and effectively.” Timely information
       should be available and in a form that allows Rosebud management and staff as well as
       EPA staff to ensure programs operate effectively and efficiently. Timely Financial Status
       Reports help EPA and Tribal managers determine whether funds are sufficient to complete
       required tasks and program progress reports highlight accomplishments and areas that need
       extra attention. However, Rosebud Sioux Tribe staff submitted Financial Status Reports
       and quarterly status reports late or not at all and, in many cases, could not locate
       accounting records necessary to support claimed costs.




                                                    4                 Report No. 1000370-2002-1-00096
                                                                               EPA Grants Awarded to
                                                                              the Rosebud Sioux Tribe



Recommendations

We recommend that the Acting Regional Administrator, Region 8:

   1. Recover $387,621 in payments made to the grantee for which we questioned costs.

   2. Designate the grantee as high risk until the grantee develops and implements written
      procedures and controls to ensure that its:

       (a) financial management system can adequately account for and support all claimed costs;
           and

       (b) payroll system meets Office of Management and Budget Circular A-87 requirements.

   3. Suspend all current and new grants if, after 6 months, the grantee has not made substantial
      progress toward meeting the requirements of recommendation 2.

   4. Discuss the importance of strong internal controls including meaningful, timely program
      performance reporting with Rosebud Sioux Tribe managers.


Agency Comments and OIG Evaluation

Region 8 officials generally agreed with the findings and recommendations. Regional staff
provided comments to clarify portions of the report and we have incorporated these comments and
modified the report as appropriate. We have included the Region's complete response in Appendix
I.

We reviewed the documentation the grantee sent to the Region regarding questioned costs and
agree with the Region that the materials the grantee provided support $12,413 of the costs
questioned in our draft report. As a result we have changed recommendation 1 to read: “Recover
$387,621 in payments made to the grantee for which we questioned costs.”

The Region agreed to designate the grantee as high risk and noted that the grantee has already
made significant timekeeping changes to its payroll system that, if executed, will bring the grantee
into compliance with Office of Management and Budget Circular A-87. However, in order to fully
comply with EPA Order 2750, the Region must request from the grantee a corrective action plan
describing how it will comply with recommendation 2. The grantee's corrective action plan should
include milestone dates and specific actions it will take in order to correct the issues noted in
recommendation 2.




                                                   5                 Report No. 1000370-2002-1-00096
                                                                               EPA Grants Awarded to
                                                                              the Rosebud Sioux Tribe

The Region substantially agreed with recommendation 3. We agree that the Region should
reevaluate the grantee's financial management system after 6 months to determine whether the
grantee has made substantial progress correcting deficiencies. We also agree that if the grantee
has fully complied the Region should remove the grantee's high risk designation. We believe
however, that the Region should recognize that if the grantee has made little or no progress, the
Region should withhold future grants until the grantee complies with Office of Management and
Budget Circular A-87.

The Region did not agree that establishing a strategic or action plan to ensure future costs claimed
are eligible, reasonable, and supported is practical. The Region pointed out that short of
demanding full documentation for all future costs claimed, it could not ensure all costs were
legitimately reimbursable. Because that recommendation applied to other Tribes in the Region as
well, we removed that recommendation from this report and will include a similar recommendation
in our report on Region 8 program performance issues.

The Region agreed that it would emphasize the importance of strong internal controls during its
next visit to the Tribe.




                                                   6                 Report No. 1000370-2002-1-00096
                                                                               EPA Grants Awarded to
                                                                              the Rosebud Sioux Tribe

                                           Exhibit A

                        Summary of Balance Due EPA

  Water Grant I008541970                  EPA Payments as of 9/6/2000               $175,746
  (See Exhibit B)
  •   $187,806 Claimed                    EPA Share (95% of allowable)1               $34,999
  •   $150,965 Questioned
  •    $36,841 Total Allowable            Balance Due EPA                           $140,747


  General Assistance Program Grant        EPA Payments as of 4/25/2000              $199,429
  NI998457010 (See Exhibit C)
  •   $199,429 Claimed                    EPA Share (100% of allowable)               $22,646
  •   $176,783 Questioned
  •    $22,646 Total Allowable            Balance Due EPA                           $176,783


  1998 Pesticides Grant E00827198         EPA Payments as of 6/28/1999                $38,500
  (See Exhibit D)
  •   $40,526 Claimed                     EPA Share (95% of allowable)                 $4,282
  •   $36,018 Questioned
  •    $4,508 Total Allowable             Balance Due EPA                             $34,218


  1999 Pesticides Grant E00827199         EPA Payments as of 3/27/2001                $38,500
  (See Exhibit E)
  •   $40,526 Claimed                     EPA Share (95% of allowable)                 $2,627
  •   $37,761 Questioned
  •    $2,765 Total Allowable             Balance Due EPA                             $35,873




                          Total Costs Claimed:                     $468,287
                          Total Costs Questioned:                  $401,527
                          Total Allowable:                         $ 66,760

                          Total EPA Payments Made:                 $452,175
                          Total EPA Share Allowable:               $ 64,554

                          Balance Due EPA:                         $387,621



Note

1. EPA share represents EPA's portion of allowable project cost.




                                                    7              Report No. 1000370-2002-1-00096
                                                                                  EPA Grants Awarded to
                                                                                 the Rosebud Sioux Tribe


Exhibit B

             Summary of Audit Results for Water Grant I008541970


                                                            Costs Questioned As:

                            Costs
        Categories         Claimed       Ineligible    Unreasonable     Unsupported          Total

     Payroll              $112,909                                         $112,909        $112,909 1
     Travel                  9,806                                            1,038           1,038 2
     Vehicle Expense         4,594
     Supplies                9,561         $1,171                                             1,171 3
     Contractual            11,615
     Equipment               1,624
     Utilities               2,862                                            1,011           1,011 4
     Indirect Costs         22,774                                           22,774          22,774 5
     Recipient Match        12,061                                           12,061          12,061 6

     Total                $187,806         $1,171                          $149,793        $150,965 7

     Total Allowable (Claimed less Questioned)                                              $36,841


     Summary of Balance Due EPA

     EPA Payments as of 9/6/2000          $175,746

     EPA Share (95% of allowable)           34,999

     Balance Due EPA                      $140,747



Notes

1.                 We questioned $112,909 of salaries and related fringe benefit costs as unsupported
                   because the grantee did not use an acceptable basis for charging salaries. The grantee
                   neither maintained an after-the-fact accounting of time charges nor certified that any
                   employees worked solely on the water grant. Office of Management and Budget
                   Circular A-87 requires that when employees work on more than one activity or cost
                   objective, their salary or wage distribution must be supported by documentation that
                   reflects an after-the-fact distribution of the actual activity of each employee.
                   Specifically, Office of Management and Budget Circular A-87 provides that, “Budget

                                                       8                Report No. 1000370-2002-1-00096
                                                                       EPA Grants Awarded to
                                                                      the Rosebud Sioux Tribe

     estimates or other distribution percentages determined before the services are performed
     do not qualify as support for charges to Federal awards . . .” The Circular further
     requires that when employees expect to work solely on a single Federal award, “charges
     for their salaries and wages will be supported by periodic certifications that the
     employees worked solely on that program for the period covered by the certification . .
     .” Certifications must be prepared at least semi-annually and signed by the employee or
     a supervisor having first-hand knowledge of the work performed. Office of
     Management and Budget Circular A-87 provides that “substitute systems,” such as
     quantifiable measures of employee effort, may be used instead of an after-the-fact
     distribution of an employee’s actual activity.

2.   We questioned $1,038 of travel costs as unsupported because of insufficient information
     provided to evaluate the eligibility of reimbursed costs.

3.   We questioned $1,171 of supply costs as ineligible because the grantee incurred the
     costs before the beginning of the grant period. 40 CFR §30.28 provides that where a
     funding period is specified, a recipient may charge to the grant only allowable costs
     resulting from obligations incurred during the funding period and any pre-award costs
     specifically authorized by EPA.

4.   We questioned $1,011 of utility costs as unsupported because of insufficient information
     provided to evaluate eligibility. Specifically, the grantee did not provide us a copy of
     either a vendor’s invoice or evidence of disbursement made to a vendor.

5.   We questioned $22,774 of indirect costs as unsupported because we questioned all of
     the payroll costs (salary and fringe benefits), as discussed in Note 1, and because the
     grantee used salaries as the basis for indirect costs. Even if the grantee supported all
     salaries and fringe benefits, we would still question the eligibility of $1,329 of indirect
     costs because the grantee did not apply the indirect cost rate in effect during the
     applicable time period. Had the grantee applied the correct rate, it would have claimed
     $1,329 less than it did under this grant.

6.   We questioned $12,061 of recipient match costs as unsupported because the grantee
     provided inadequate documentation to support the match amount to enable the auditors
     to determine cost eligibility.

7.   Does not add due to rounding.




                                          9                  Report No. 1000370-2002-1-00096
                                                                                  EPA Grants Awarded to
                                                                                 the Rosebud Sioux Tribe



                                               Exhibit C

                       Summary of Audit Results for
              General Assistance Program Grant NI998457010


                                                             Costs Questioned As:

                         Costs
     Categories         Claimed         Ineligible        Unreasonable    Unsupported        Total

  Payroll               $146,436          $7,607                            $138,829       $146,436 1
  Travel                  11,299                              $64                100            164 2
  Vehicle Expense            603                                                 289            289 3
  Supplies                 6,190              85                                                 85 4
  Contractual              1,993              270                                               270 5
  Utilities                3,369
  Indirect Costs          29,539           3,015                               26,524        29,539 6

  Total                 $199,429        $10,977               $64           $165,742       $176,783

  Total Allowable (Claimed less Questioned)                                                 $22,646


  Summary of Balance Due EPA

  EPA Payments as of 04/25/2000         $199,429

  EPA Share (100% of allowable)            22,646

  Balance Due EPA                       $176,783



Notes

1. We questioned $138,829 of salaries and related fringe benefit costs as unsupported because the
   grantee did not use an acceptable basis (as outlined in Office of Management and Budget
   Circular A-87) for charging salaries. See Exhibit B, Note 1. In addition, we questioned $7,607
   in salary and related fringe costs as ineligible. The grantee’s requisition/order form stated that
   the $7,607 was part of a charge to the grant, “To cover amount over expended as (the Lead)
   Grant ended 9/30/98 and the Water Res Secy did not submit a Personnel Action to end . . .
   salary and supplement resulting in an over expended of Sal/Frng & Indirect Cost = $9,144.20.”
   The program monitor explained that this charge resulted from cuts in the lead program’s
   funding and compensation owed the director of the lead program for work done after that grant


                                                     10                  Report No. 1000370-2002-1-00096
                                                                                  EPA Grants Awarded to
                                                                                 the Rosebud Sioux Tribe

     expired. Office of Management and Budget Circular A-87 requires that, “Any cost allocable to
     a particular Federal award or cost objective under the principles provided for in this Circular
     may not be charged to other Federal awards to overcome fund deficiencies (emphasis added),
     to avoid restrictions imposed by law or terms of the Federal awards, or for other reasons.”

2.   We questioned $164 of travel costs. Specifically, we questioned $100 as unsupported.
     We questioned $64 as unreasonable because the traveler stayed an extra 2 days at the
     destination with no justification.

3.   We questioned $289 of vehicle costs as unsupported because the documentation did not relate
     vehicle usage to the purpose of the grant.

4.   We questioned $85 of supply costs as ineligible because the purchases (a $25 charge for
     business cards and $60 for a beaded nameplate and matching pen) did not support the purpose
     of the grant.

5.   We questioned $270 of contractual costs to pay for water samples due to the ineligibility of
     implementation activities under the General Assistance Program. Water sample costs should be
     paid from the grantee’s water grant.

6.   We questioned $26,524 of indirect costs as unsupported because we questioned $138,829 of
     salaries, as discussed in Note 1, and the grantee used salaries and fringe benefits as the basis for
     indirect costs. In addition, even if the grantee supported all salaries, we would still question the
     eligibility of $3,015. Specifically, we questioned $1,537 based on ineligible payroll and fringe
     benefit costs (see Note 1), and $1,478 because the grantee did not apply the correct indirect
     cost rate in effect during the grant period.




                                                    11                  Report No. 1000370-2002-1-00096
                                                                                    EPA Grants Awarded to
                                                                                   the Rosebud Sioux Tribe



                                                 Exhibit D

     Summary of Audit Results for Pesticides Grant E00827198


                                                               Costs Questioned As:

                           Costs                                            Unsupporte
        Categories        Claimed         Ineligible        Unreasonable        d               Total

     Payroll               $29,312                                             $29,312        $29,312 1
     Travel                  1,516                                                                 (3) 2
     Vehicle Expense         1,377
     Supplies                  744

     Utilities                 908                                                  40              40 3
     Indirect Costs          5,921                                               5,921           5,921 4

     Unidentified              748                                                 748            748 5

     Total                 $40,526                                             $36,018        $36,018

     Total Allowable (Claimed less Questioned)                                                  $4,508


     Summary of Balance Due EPA

     EPA Payments as of 06/28/1999         $38,500

     EPA Share (95% of allowable)            4,282

     Balance Due EPA                       $34,218



 Notes

1.    We questioned $29,312 of salaries and related fringe benefit costs as unsupported because the
      grantee did not use an acceptable basis (as outlined in Office of Management and Budget
      Circular A-87) for charging salaries. See Exhibit B, Note 1.

2.   The grantee expended $3 more than it claimed for travel. As a result, we added $3 to its
     reimbursable amount.

3.   We questioned $40 of utility costs as unsupported because the grantee provided insufficient
     documentation to evaluate the eligibility of costs.



                                                       12                  Report No. 1000370-2002-1-00096
                                                                                  EPA Grants Awarded to
                                                                                 the Rosebud Sioux Tribe

4.   Because we questioned all salary and fringe benefits, as discussed in Note 1, and the grantee
     used salaries and fringe benefits as the basis for indirect costs, we questioned $5,921 of indirect
     costs as unsupported.

5.   This $748 represents the difference between total outlays reported on the final Financial Status
     Report and the grantee’s accounting records. Therefore, since the grantee could not account
     for this amount, we questioned the $748 as unsupported.




                                                    13                  Report No. 1000370-2002-1-00096
                                                                                      EPA Grants Awarded to
                                                                                     the Rosebud Sioux Tribe

                                                  Exhibit E

     Summary of Audit Results for Pesticides Grant E00827199


                                                                 Costs Questioned As:

                            Costs                                             Unsupporte
        Categories         Claimed         Ineligible         Unreasonable        d               Total

     Payroll                $31,528                                              $31,528        $31,528 1
     Travel                     546
     Vehicle Expense          1,286
     Supplies                   784

     Equipment                   99
     Utilities                   51
     Indirect Costs           6,369                                                6,369           6,369 2

     Unclaimed Cost           (136)                                                (136)           (136) 3

     Total                 $40,5264                                              $37,761        $37,761

     Total Allowable (Claimed less Questioned)                                                    $2,765


     Summary of Balance Due EPA

     EPA Payments as of 03/27/2001          $38,500

     EPA Share (95% of allowable)                2,627

     Balance Due EPA                        $35,873



Notes

1.        We questioned $31,528 of salaries and related fringe benefit costs as unsupported because
          the grantee did not use an acceptable basis (as outlined in Office of Management and Budget
          Circular A-87) for charging salaries. See Exhibit B, Note 1.

2.        We questioned $6,369 of indirect costs as unsupported because we questioned all of the
          salary and fringe benefits, as discussed in Note 1, and the grantee used salaries as the basis
          for indirect costs.




                                                         14                  Report No. 1000370-2002-1-00096
                                                                            EPA Grants Awarded to
                                                                           the Rosebud Sioux Tribe

3.   This amount represents the difference between total outlays reported on the final Financial
     Status Report of $40,526 and the grantee’s accounting records in the amount of $40,662.
     Since the grantee expended $136 more in allowable unclaimed costs than it reported on its
     Financial Status Report, this amount should be added to the grantee’s reimbursable costs.

4.   Total does not add due to rounding.




                                               15                 Report No. 1000370-2002-1-00096
                                                EPA Grants Awarded to
                                               the Rosebud Sioux Tribe




(this page intentionally left blank)




                16                     Report No. 1000370-2002-1-00096
                             EPA Grants Awarded to
                            the Rosebud Sioux Tribe



                                    Appendix I
Region 8 Response




       17           Report No. 1000370-2002-1-00096
                                    EPA Grants Awarded to
                                   the Rosebud Sioux Tribe



                                           Appendix I
Region 8 Response (continued)




             18            Report No. 1000370-2002-1-00096
                                                                          EPA Grants Awarded to
                                                                         the Rosebud Sioux Tribe



                                                                                Appendix II
                                       Distribution

Office of Inspector General
       Inspector General

EPA Headquarters Office
     Comptroller (2731A)
     Director, Grants Administration Division (3903R)
     Agency Audit Followup Coordinator (2724A)
     Associate Administrator for Congressional and Intergovernmental Relations
       (1301A)
     Associate Administrator for Communications, Education, and Media Relations
       (1101A)

Region 8 Office
      Regional Counsel
      Assistant Regional Administrator, Office of Partnerships and Regulatory
         Assistance
      Associate Assistant Regional Administrator, Office of Partnerships and
         Regulatory Assistance
      Director, Tribal Assistance Program
      Assistant Regional Administrator, Office of Technical and Management Services
      Director, Grants, Audits, and Procurement Program
      Director, Financial Management Program
      Audit Followup Coordinator
      Director, Office of Communication and Public Involvement
      Rosebud Sioux Tribe Project Officer, Tribal Assistance Program

Rosebud Sioux Tribe
      President




                                              19                 Report No. 1000370-2002-1-00096
